                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

11   Case Number: A-01050014
                                                                                            11              Page 1 of 2



                   We were informed' that the subject2 had submitted a proposal3 in which he had failed to
           provide credit to other scientists for their research. Instead, by writing the proposal without
           citations for this work, it falsely appear that the work had been conducted in the subject's
           laboratory.

                   In response to our inquiry, the subject stated that he had not affirmatively claimed credit
           for the work described in the proposal. He stated that a graduate student4 in another scientist's
           (the student's advisor) laboratod conducted much of the work. After receiving his doctorate
           degree, the graduate student came to work for the subject and conducted further experimentation.
            Both the student's graduate and postdoctoral work were described in large portions of the
           proposal subsequently submitted by the subject. The postdoctoral researcher co-wrote the
           proposal with the subject with the knowledge of the other scientist. The subject explained that
           the proposal was designed to fund the postdoctoral researcher's work that would extend his
           graduate research and this position was described in the proposal's budget.

                   The subject subsequently provided us with an analysis of his proposal, noting where it
           relied on the unattributed work of others. He noted that:

                          the original work on the research material was conducted by the other scientist
                          when she was a postdoctoral researcher,
                          the initial characterization of the research material and the subsequent refinement
                          of that characterization was performed by the graduate student,
                          discussion of this characterization and refinement appeared in the graduate
                          student's unpublished dissertation,
                          several figures in the proposal were unpublished and, although uncited, were used
                          with permission of the student and his advisor, and
                          one of the figures appeared in the student's dissertation.

                                                                     OIG with copies of                         expressing

                                                                                           PP
                                                                    ces for work described in his ro osal.
                                                                      ~ i v i s i o n ,

                                                                   , submitted by the subject as the sole PI. It requested a


                           at the University of .-



I      Sign l date
                              Agent                     Attorney                      Supervisor                      AIGI



                                                                                                                      OIG-02-2
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

11   Case Number: A01050014
                                                                                 11          Page 2 of 2



                 The subject explained that his institution would not permit postdoctoral researchers to be
         named as co-PIS on proposals. He stated he recently learned from his postdoctoral researcher
         that a chapter of his dissertation was devoted to this research project and that the research had
         been presented at a meeting approximately 1 year before the proposal was submitted.

                 The subject provided sufficient explanation and description of the sources of the
         information in his proposal for OIG to conclude that he had not plagiarized either the ideas or the
         text from other scientists. OIG concluded that he had failed to sufficiently reference the work of
         those in his laboratory.

                 It is doubtful this allegation would have arisen if his proposal had contained citations to
         the work in the other scientist's laboratory or to the dissertation of his postdoctoral researcher.
         OIG concluded there was insufficient reason to review this matter further and notified the subject
         and suggested that he carefully reference such work. In the absence of scientific publications, the
         use of "personal communication" and "unpublished results" citations will inform readers of his
         proposals that he has acknowledge the contributions of others to his proposal.

                This case is closed and no further action will be taken in this matter.
